                        U.S. Department of Agriculture

                           Office of Inspector General
                                    Southwest Region




             Audit Report



          Farm Service Agency
Tracking Finality Rule and Equitable Relief
                 Decisions




                                   Report 03601-44-Te
                                          March 2006
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                       OFFICE OF INSPECTOR GENERAL


                                            Washington D.C. 20250




March 27, 2006


REPLY TO
ATTN OF:       03601-44-Te

TO:            Teresa C. Lasseter
               Administrator
               Farm Service Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Robert W. Young /s/
               Assistant Inspector General for Audit

SUBJECT:       Tracking Finality Rule and Equitable Relief Decisions


This report presents the results of our audit of the Farm Service Agency’s (FSA) management controls
for tracking and reporting finality rule and equitable relief decisions. FSA’s February 28, 2006, written
response to the draft report is included as exhibit D, with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the relevant Findings and Recommendations sections of the
report.

Based on the information in your response, we have reached management decision for
Recommendations 1 and 4. Please follow Departmental and your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer, Director, Planning
and Accountability Division (OCFO/PAD). Regulation requires final action to be taken within 1 year
of each management decision to prevent being listed in the Department’s annual Performance and
Accountability Report.

Documentation and/or actions needed to reach management decisions for Recommendations 2, 3, and
5 are described in the OIG Position sections of the report. In accordance with Departmental Regulation
1720-1, please furnish a reply within 60 days describing the corrective actions taken or planned and the
timeframes for implementation for those recommendations for which management decisions have not
been reached. Please note that the regulation requires a management decision to be reached on all
findings and recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to our staff during this review.
Executive Summary
Farm Service Agency Tracking Finality Rule and Equitable Relief Decisions
(Audit Report 03601-44-Te)

Results in Brief                        The U.S. Department of Agriculture’s Farm Service Agency (FSA) pays
                                        billions of dollars annually to farmers participating in its programs.
                                        Occasionally, because of errors, program participants are paid too much.
                                        Specific rules—known as the “finality rule” and “equitable relief”—have
                                        been designed to allow for the forgiveness of repayment in those cases
                                        where producers acted in good faith, but FSA or the producer erred. 1 Our
                                        objective was to determine whether FSA’s controls were adequate to ensure
                                        that finality rule and equitable relief determinations are tracked and
                                        accounted for properly.

                                        We found that FSA lacked adequate management controls to track and
                                        report equitable relief and finality rule determinations.

                                             Equitable relief—Beginning under the Farm Security and Rural
                                             Investment Act of 2002 (2002 Farm Bill), States were required to submit
                                             annual reports of equitable relief to the FSA National Office, and the
                                             national office, in turn, was required to report to Congress. For the 2003
                                             calendar year, the national office received reports from all 51 State
                                             offices. 2 However, the reported data was inaccurate and incomplete.
                                             These reports showed a total of $694,629 in approved equitable relief,
                                             but we determined that 29 of the 51 reports submitted to the national
                                             office were inaccurate and incomplete. This data later contributed to the
                                             inaccuracy and incompleteness of the Secretary’s report to Congress. 3
                                             For calendar year 2003, based on our review of the State reports of
                                             equitable relief submitted to the national office and on our detailed
                                             review of equitable relief determinations in three States, we found that
                                             the approved equitable relief reported to Congress was understated by at
                                             least $1,894,254. (See exhibit B.)

                                             Finality Rule—Since the 2002 Farm Bill, FSA has changed its
                                             procedures for reporting improper payments forgiven due to the finality
                                             rule. Prior to 2003, FSA State offices reported finality rule
                                             determinations through an automated form. In 2003, FSA did not require
                                             State offices to report finality determinations at all, though some
                                             included final rule determinations on the State’s Annual Report of
                                             Equitable Relief. (For calendar year 2003, based on our review of the
                                             State reports submitted to the national office and on our detailed review
                                             of finality rule determinations in three States, we identified $165,660 in
                                             finality rule determinations for 2003. (See exhibit C.)) More recently,

1
  For additional clarification, see Background.
2
  The 51 State offices consist of the United States and Puerto Rico.
3
  See exhibit B.

USDA/OIG-AUDIT/03601-44-Te                                                                                      Page i
                                                                   MARCH 2006
                      FSA has required that finality rule determinations be reported, but has
                      not established reliable controls for ensuring the accuracy and
                      completeness of this information.

                   Moreover, we found that FSA was not analyzing its equitable relief and
                   finality rule requests to identify weaknesses in program delivery that could
                   be remedied to prevent future needs for relief. Neither the national office nor
                   the three State offices reviewed had analyzed the over $2.7 million of such
                   approved 2003 determinations. (See exhibit A.) Consequently, no plans had
                   been developed to reduce the likelihood of future errors from occurring.

                   National office personnel explained that FSA had not emphasized reporting
                   equitable relief and finality rule determinations because it was instead
                   working to develop a system of reporting improper payments as required by
                   the Improper Payments Information Act of 2002 (IPIA). Despite the
                   provisions of law that FSA annually report to Congress on equitable relief
                   activity, FSA officials said any time spent developing a tracking and
                   reporting process for finality rule and equitable relief would be a duplication
                   of effort, and the same purpose would be served by complying with IPIA.
                   We noted, however, that reporting equitable relief and finality rule
                   determinations and reporting improper payments for IPIA serve different
                   purposes. While IPIA requires agencies to report estimated improper
                   payments, a clear and accurate summary of equitable relief and finality rule
                   determinations would represent a precise statement of actual improper
                   payments for which relief is requested.

Recommendations
In Brief           FSA should develop a plan to implement an automated system to accurately
                   track finality rule and equitable relief determinations. In the interim,
                   FSA should establish and implement controls to ensure that all manual
                   reports are submitted and that they contain complete and accurate
                   information. The finality rule and equitable relief data should be shared with
                   FSA’s Financial Management Division.

                   In addition, FSA should establish and implement controls to ensure that
                   finality rule and equitable relief cases are analyzed to improve program
                   integrity.

Agency
Response
                   FSA concurred with the findings and recommendations. FSA has developed
                   tracking program requirements. The completion of development, testing, and
                   deployment of the tracking software is projected for August 31, 2006. Also,
                   FSA will amend its Handbook 7-CP to ensure State reports are complete and
                   accurate, and require FSA State offices to annually report on actions to
                   address any weakness in program delivery. Further, FSA will require a copy


USDA/OIG-AUDIT/03601-44-Te                                                                Page ii
                                     MARCH 2006
                   of the summary reports for both finality rule and equitable relief be
                   submitted to the Financial Management Division.

OIG
Response
                   We agree with the actions taken and accept management decision on two
                   recommendations based on the developed plans for the automated tracking
                   system. However, to reach management decision for the other three
                   recommendations, we need documentation showing that FSA has amended
                   its handbook to include the other actions.




USDA/OIG-AUDIT/03601-44-Te                                                         Page iii
                                   MARCH 2006
Abbreviations Used in This Report

DAFP                    Deputy Administrator for Farm Programs
FSA                     Farm Service Agency
IPIA                    Improper Payments Information Act of 2002
OCFO/PAD                Office of the Chief Financial Officer,
                          Director, Planning and Accountability Division
OIG                     Office of Inspector General
OMB                     Office of Management and Budget
SED                     State Executive Director
STC                     State Committee
2002 Farm Bill          Farm Security and Rural Investment Act of 2002




USDA/OIG-AUDIT/03601-44-Te                                                 Page iv
                                     MARCH 2006
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Finality Rule and Equitable Relief Determinations ..................................................... 5

        Finding 1             FSA Should Improve Its Controls for Tracking and Reporting Finality Rule
                              and Equitable Relief Determinations ...................................................................... 5
                                  Recommendation 1 ........................................................................................ 10
                                  Recommendation 2 ........................................................................................ 10
                                  Recommendation 3 ........................................................................................ 11
                                  Recommendation 4 ........................................................................................ 11
                                  Recommendation 5 ........................................................................................ 12

Scope and Methodology........................................................................................................................ 13

Exhibit A – Summary of Monetary Results ....................................................................................... 15
Exhibit B – 2003 Reports of Equitable Relief..................................................................................... 16
Exhibit C – 2003 Finality Rule Cases Identified by Audit ................................................................ 18
Exhibit D – Agency Response .............................................................................................................. 19




USDA/OIG-AUDIT/03601-44-Te                                                                                                                Page v
                                                               MARCH 2006
Background and Objective
    Background                        Statutory authority for relief based on incorrect action or information of
                                      Farm Service Agency (FSA) personnel was provided in section 326 of the
                                      Food and Agricultural Act of 1962, as amended. Generally speaking, an
                                      overpayment to a farmer was forgiven if the Secretary of Agriculture
                                      determined that a hardship existed. Currently, relief determinations are made
                                      under the provisions of finality rule and equitable relief.

                                      Finality Rule—

                                      In 1990, the Food, Agriculture, Conservation, and Trade Act established the
                                      finality rule. According to this act, the decisions of FSA’s State and county
                                      committees, or employees of the committees, which were made in good
                                      faith in the absence of misrepresentation, false statement, fraud, or willful
                                      misconduct by the farmer, are final in 90 days, and no action should be
                                      taken to recover an erroneous overpayment unless the farmer had reason to
                                      believe that the payment was in error. According to its legislative history,
                                      this provision was intended to protect a farmer from the hardship of having
                                      to repay large amounts of money long after the payments were received. The
                                      Federal Crop Insurance Reform and Department of Agriculture
                                      Reorganization Act of 1994 made changes to the finality rule, including
                                      establishing the start of the 90-day period as the date the farmer files an
                                      application for benefits. The finality rule applies to all FSA and Commodity
                                      Credit Corporation programs that provide payments to farmers.

                                      Under these acts, finality rule determinations were reported on an automated
                                      form in order to arrive at a nationwide total of improper payments forgiven;
                                      however, when equitable relief was enacted by the Farm Security and Rural
                                      Investment Act of 2002 (2002 Farm Bill), the automated reporting
                                      mechanism was dropped, and States were not required to include finality
                                      rule determinations in their manual reporting of equitable relief cases to the
                                      national office. During our review, FSA revised its handbook and reinstated
                                      the requirement for State offices to submit an annual report of finality rule
                                      determinations to the national office. 4 However, that reporting must be
                                      accomplished manually, as no automated system yet exists.

                                      Equitable Relief—

                                      The 2002 Farm Bill repealed section 326 of the Food and Agricultural Act
                                      of 1962 and provided new authority for equitable relief. Under the bill,
                                      equitable relief may be authorized for participants who are determined to be
                                      out of compliance with the requirements of covered programs and, thereby,
                                      ineligible for a loan, payment, or other benefit under a covered program, if
                                      either of the following applies:

4
    FSA Handbook 7-CP (revision 2), amendment 2, paragraph 83C, dated March 6, 2004.
USDA/OIG-AUDIT/03601-44-Te                                                                                   Page 1
                                                               MARCH 2006
                                      •     The participant, acting in good faith, relied on the action or advice of an
                                            authorized FSA representative to the detriment of the participant (either
                                            due to misaction or misinformation).

                                      •     The participant failed to comply fully with the requirements of the
                                            covered program, but made a good-faith effort to comply with the
                                            requirements (failure to fully comply).

                                      In addition, the 2002 Farm Bill requires, not later than February 1 of each
                                      year, that the Secretary of Agriculture shall submit to the Congressional
                                      Agriculture Committees a report that describes for the previous year the
                                      number of requests for equitable relief and the dispositions of the requests. 5

                                      In order to meet the statutory reporting time for the Secretary’s report to the
                                      Congressional Agriculture Committees, FSA requires each State office to
                                      submit an annual report of the total number of requests for equitable relief
                                      and the disposition of the requests. Reports must be submitted by
                                      January 10 of the current year. Negative reports are required. 6

                                      Table 1 provides a comparative overview of the basis for relief under the
                                      finality rule and equitable relief provisions.

                             Type of Relief                                    Basic Provisions
                             Finality Rule          • An error was made by FSA, which resulted in an overpayment to a
                                                      program participant.
                                                    • At least 90 days have passed since the participant filed the program
                                                      application, including any required supporting documents.
                                                    • There was no error or misrepresentation by the participant.
                                                    • The participant had no reason to know an error had been made.
                             Misaction/             • A program participant made an error, but the error was the result of
                            Misinformation            the detrimental, good-faith reliance of the participant on an error made
                              (Equitable              by FSA.
                                Relief)             • There was no misrepresentation by the participant.
                                                    • The participant had no reason to know there was an error.
                                                    • The error caused a failure by the participant to meet the requirements
                                                      of the applicable program.
                            Failure to Fully        • FSA did not make an error that caused the failure of the participant to
                                Comply                fully comply with the requirements of the applicable program.
                              (Equitable            • The participant who did not meet the requirements of the applicable
                                Relief)               program made an error, but the participant made a good-faith effort to
                                                      fully comply.
                                                                                     Table 1




5
    2002 Farm Bill, section 1613.
6
    FSA Handbook 7-CP (revision 2), amendment 1, paragraph 83B, dated September 26, 2003.
USDA/OIG-AUDIT/03601-44-Te                                                                                            Page 2
                                                               MARCH 2006
                                  Table 2 describes the authority of FSA State Committees (STC) and State
                                  Executive Directors (SED) to approve equitable relief and finality rule
                                  requests.

                                        Summary of Finality Rule and Equitable Relief Authority
                                                                SED
                                                                  Up to $25,000 per case
                                  Finality Rule                DAFP*
                                                                  Cases exceeding SED authority
                                                                STC
                                                                  Up to $5,000 per case
                          Misaction/Misinformation                Less than $20,000 per participant per calendar
                             and Failure to Fully         SED     year 1/
                         Comply (Equitable Relief)        DAFP Cases exceeding STC or SED authority 2/
                        * DAFP – Deputy Administrator for Farm Programs
                        1/ Providing any previous relief granted by SED in the same calendar year to that participant
                        did not exceed $5,000 and relief provided to similarly situated participants is not greater than
                        $1 million.
                        2/ “If STC or SED has authority to grant relief on a particular case that is similar to another
                        case, that requires a decision by STC, SED, or DAFP shall take no action on the case under
                        [their] authority until DAFP makes a determination.”
                                                                            Table 2

                                   Improper Payments Information Act of 2002—

                                   Although it is not directly related to FSA’s equitable relief and finality rule,
                                   the Improper Payments Information Act of 2002 (IPIA) nonetheless adds
                                   impetus to properly tracking all FSA finality rule or equitable relief case
                                   determinations. Specifically, IPIA requires the head of each agency to
                                   annually review all programs and activities the agency administers to
                                   identify those that may be susceptible to significant improper payments. The
                                   Office of Management and Budget (OMB) issued initial guidance for
                                   implementing the IPIA on May 21, 2003. This guidance required each
                                   agency to report the results of its estimates for improper payments and
                                   corrective actions in the Management Discussion and Analysis section of
                                   the U.S. Department of Agriculture’s Performance and Accountability
                                   Report for fiscal years ending on or after September 30, 2004. OMB also
                                   defined a threshold for significant improper payments7 and specified that, if
                                   programs or activities exceeded this threshold, agencies must develop a
                                   statistically valid estimate to report to Congress, as well as a plan to lessen
                                   future occurrences.

                                   IPIA requires agencies’ reports on actions to reduce improper payments to
                                   include:

                                   (1) a discussion of the causes of the improper payments identified, actions
                                       taken to correct those causes, and results of the actions taken to address
                                       those causes;


7
 OMB defined significant improper payments as annual erroneous payments exceeding both 2.5 percent of program payments and $10 million. (See
OMB Memorandum M-03-13, dated May 21, 2003.)
USDA/OIG-AUDIT/03601-44-Te                                                                                                         Page 3
                                                           MARCH 2006
                   (2) a statement of whether the agency has the information systems and other
                       infrastructure it needs in order to reduce improper payments to minimal
                       cost-effective levels;

                   (3) if the agency does not have such systems and infrastructure, a
                       description of the resources the agency has requested in its budget
                       submission to obtain the necessary information systems and
                       infrastructure; and

                   (4) a description of the steps the agency has taken to ensure that agency
                       managers (including the agency head) are held accountable for reducing
                       improper payments.

Objective          Our objective was to determine whether management controls were
                   adequate to ensure that FSA properly tracks and accounts for all finality rule
                   or equitable relief case determinations.




USDA/OIG-AUDIT/03601-44-Te                                                                Page 4
                                     MARCH 2006
Findings and Recommendations
Section 1. Finality Rule and Equitable Relief Determinations



Finding 1                              FSA Should Improve Its Controls for Tracking and Reporting
                                       Finality Rule and Equitable Relief Determinations

                                       FSA lacks adequate controls for tracking and reporting equitable relief and
                                       finality rule determinations. FSA officials told us they felt that meeting IPIA
                                       requirements would mean that tracking and reporting equitable relief and
                                       finality rule determinations would be an unnecessary duplication of effort.
                                       Since FSA focused its attention on satisfying the requirements of IPIA, the
                                       agency neither emphasized the reporting requirements for equitable relief
                                       nor considered it important to track finality rule determinations. As a result,
                                       FSA has not systematically identified or addressed the problems
                                       precipitating equitable relief and finality rule determinations, and has
                                       instituted no corrective actions to prevent those problems from recurring.

                                       The FSA handbook 8 states the requirements for documenting and
                                       submitting annual reports of equitable relief from the counties to the States
                                       and from the States to the national office. It requires county offices to
                                       document and recommend both finality rule and equitable relief cases on
                                       Form FSA-321 Manual, “Finality Rule and Equitable Relief.” The FSA-321
                                       Manuals and applicable county committee minutes are then sent to the State
                                       offices. Each State office is required to compile all the county submissions
                                       into an Annual FSA-321 Manual and submit it to the FSA National Office
                                       by January 10 of the current year. The Annual FSA-321 Manual is not an
                                       official form; instead, it is a summary report listing all the equitable relief
                                       cases reported by the counties. Although the State offices may approve
                                       cases within their dollar limits, States must refer other cases to the national
                                       office for approval. Prior to 2003, finality rule determinations were reported
                                       through an automated system; however, that requirement was withdrawn
                                       in 2003 and finality rule determinations were not required to be reported on
                                       the Annual FSA-321 Manual (report of equitable relief) to the national
                                       office.

                                       FSA has since revised its handbook to include finality rule determinations in
                                       the reports to the national office. In further revisions to the handbook, the
                                       names of the annual reports on equitable relief and finality rule were
                                       changed to “Annual FSA-321,” and the form FSA-321 Manual was changed
                                       to “FSA-321.” FSA Handbook 7-CP (revision 2), amendment 3, dated
                                       June 3, 2005, notes that the FSA-321 Manual is obsolete. Further, the
                                       amendment notes that the form can only be completed manually, “until the

8
    FSA Handbook 7-CP (revision 2), amendment 1, paragraphs 82 and 83, exhibits 5 and 11, dated September 26, 2003.
USDA/OIG-AUDIT/03601-44-Te                                                                                            Page 5
                                                                 MARCH 2006
                    web-based application is available” – indicating that FSA has plans to
                    automate the FSA-321.

                    We found that FSA lacked adequate controls for ensuring that the annual
                    reports on equitable relief contained accurate and complete information. The
                    collective 2003 annual report of all 51 State offices showed approved
                    equitable relief determinations totaling $694,629. However, when we
                    reviewed each of the individual State reports, we found that 29 of the
                    51 reports submitted to the national office were incomplete: 19 of the
                    29 reports listed only equitable relief determinations made by the SED;
                    another 9 reports submitted incomplete information (for example, not all
                    counties were accounted for); and 1 report otherwise did not include
                    $9,914 for equitable relief. 9 (Moreover, we found that four State reports
                    included finality rule determinations totaling $144,885. However, such
                    finality rule cases were clearly delineated on the reports, and only $2,418 in
                    finality rule was ultimately erroneously included by FSA in the equitable
                    relief report to Congress.) 10 Our detailed review of records at the Arkansas,
                    Florida, and Texas FSA State Offices, disclosed that Arkansas and Texas
                    had equitable relief cases of $11,141 and $1,873,199, respectively, despite
                    the fact those two States had submitted negative reports to the national
                    office. In sum, based on our review of all the States’ reports to the national
                    office and on our detailed review at the three State offices, we found the
                    amount of approved equitable relief determinations for 2003 reported to
                    Congress was significantly understated by at least $1,894,254. (See
                    exhibit B.)

                    State Office Reports of Equitable Relief Were Understated—

                    Both Arkansas and Texas submitted annual reports understating the amount
                    of equitable relief they had approved. 11 Although their reports showed that
                    no equitable relief had been approved for the year, we found that 19 cases of
                    approved equitable relief were documented in the STC minutes for 2003—
                    15 cases in Texas totaling $572,693, and 4 cases in Arkansas totaling
                    $11,141.

                    Moreover, FSA State office officials had not prepared FSA-321s for an
                    additional five cases totaling $1,300,506 in Texas and had not recorded
                    these cases in the STC minutes under the equitable relief determinations
                    subheading. Although the State office had granted relief for noncompliance
                    on Conservation Reserve Program agreements, it had not properly classified
                    these cases as “failure to fully comply” under the equitable relief provisions.
                    State office officials acknowledged that the cases should have been
                    classified as “failure to fully comply” under the equitable relief provisions,
                    and reported accordingly. Therefore, in all, Texas should have reported
                    20 cases totaling $1,873,199 of equitable relief for 2003.
9
   See exhibit B.
10
   See exhibit C.
11
   See exhibit B.
USDA/OIG-AUDIT/03601-44-Te                                                                  Page 6
                                      MARCH 2006
                                      Equitable relief was not reported fully and accurately due to problems at the
                                      State and national levels. Program officials at both the Texas and Arkansas
                                      State Offices were unaware of the requirement to submit the annual reports
                                      for all equitable relief cases they had processed during the year. During the
                                      entrance conference at one of the State offices, an official stated it was the
                                      first time he had heard that a report listing all equitable relief requests was
                                      required. The official further stated that national training given on the
                                      2002 Farm Bill had included about a 10-minute discussion on equitable
                                      relief; however, there was no mention of any annual report. This official
                                      also said that he tries to stay fully aware of any requirements to submit
                                      reports, but had simply not read this procedure in the handbook.
                                      Additionally, the national office did not follow up to see if Texas’ and
                                      Arkansas’ zero reports of equitable relief were correct, even though some
                                      equitable relief cases from those States previously had been elevated to
                                      DAFP for determination. The existence of these elevated cases should have
                                      indicated that reports of no equitable relief in those States were inaccurate.

                                      Our review of the Florida State FSA Office—which showed the most cases
                                      of relief on the national office’s summary report—found that Florida was
                                      late submitting its report and that the report contained duplicate reporting for
                                      one county that totaled approximately $80,000. This error was discovered
                                      when the State office was reviewing its files the week before we arrived, yet
                                      the State office did not notify the national office of the error.

                                      Controls for Reporting of Finality Rule Determinations Inadequate—

                                      Although FSA had previously required its State offices to report finality rule
                                      determinations to the national office, that requirement was withdrawn in
                                      2003. There was no requirement that FSA report finality rule determinations
                                      to Congress.

                                      Prior to the 2002 Farm Bill, FSA entered finality rule and
                                      misaction/misinformation data into an automated FSA-321. The handbook 12
                                      required an automated finality rule summary report (PA-129R), on the
                                      FSA-321s, to be transmitted quarterly. However, after the equitable relief
                                      provisions were implemented, the automated FSA-321 was not revised to
                                      accommodate the new equitable relief provisions, and the agency stopped
                                      using the automated system. In FSA’s handbook, instructions are provided
                                      for completing the FSA-321 Manual. It states that only the FSA-321 Manual
                                      is available to record finality rule and equitable relief. 13

                                      FSA officials explained that they did away with the automated FSA-321 in
                                      2003 because it had become outdated, inaccurate, and cumbersome.
                                      Specifically, FSA found it hard to keep the agency’s ever-changing program

12
     FSA Handbook 7-CP (revision 1), amendment 1, paragraph 84A, dated November 12, 1996.
13
     FSA Handbook 7-CP (revision 2), amendment 1, exhibit 5, dated September 26, 2004.
USDA/OIG-AUDIT/03601-44-Te                                                                                     Page 7
                                                               MARCH 2006
                                       codes up to date for that system, and they had trouble trying to “boil-down”
                                       applicable reason codes/causes of overpayments. In addition, FSA found the
                                       system (inappropriately) netted underpayments (entered as negative
                                       amounts) and overpayments to arrive at total relief amounts, i.e., the system
                                       calculated total relief as the difference between such underpayments and
                                       overpayments. FSA recognized the inaccuracies of the automated FSA-321
                                       and began work to develop a new web-based system to track relief
                                       decisions. Until such time as the new web-based system could be deployed,
                                       rather than continue use of the existing automated FSA-321 with its
                                       inefficiencies and errors, FSA opted to require the States submit manual
                                       reports of equitable relief to fulfill the Congressional reporting
                                       requirements.

                                       Despite the fact that State offices were not required to report finality rule
                                       determinations to the national office for 2003, some State offices did so
                                       anyway, but the data was not consistent, accurate, or complete. On the
                                       individual State equitable relief reports for the year, 4 State offices reported
                                       12 finality rule cases totaling $144,885. (See exhibit C.)

                                       The Office of Inspector General (OIG) staff concluded that there was
                                       confusion surrounding whether, and how, finality rule determinations should
                                       be submitted. During our review, FSA revised its handbook 14 and reinstated
                                       the requirement for State offices to annually report finality rule
                                       determinations to the national office. However, the revision does not
                                       provide adequate oversight controls for the FSA National Office to ensure
                                       that State offices submit the required reports and that the State office reports
                                       are accurate and complete. Furthermore, the handbook revision does not
                                       provide controls for the State offices to ensure that counties have
                                       documented and submitted all finality rule cases, including negative reports.

                                       FSA’s Financial Management Division is developing a system to track
                                       erroneous payments. Officials of FSA’s Production, Emergencies, and
                                       Compliance Division, Compliance Branch, stated it is thought that such
                                       process would provide much of the information that would be sought for a
                                       finality rule/equitable relief report. The Compliance Branch will be looking
                                       to develop an automated system for FSA-321 data; however, due to
                                       perceived duplication, it is holding off, pending discussions with the
                                       Financial Management Division.

                                       IPIA Reporting Requirements Differ from Equitable Relief and Finality
                                       Rule—

                                       FSA officials explained that they had been working to comply with the
                                       reporting requirements of IPIA and that this effort had taken precedence
                                       over developing an adequate system for ensuring that equitable relief and
                                       finality rule determinations were reported accurately and completely. By

14
     FSA Handbook 7-CP (revision 2), amendment 2, paragraph 83C, dated March 26, 2004.
USDA/OIG-AUDIT/03601-44-Te                                                                                      Page 8
                                                               MARCH 2006
                                       fulfilling IPIA’s requirements, they believed they would have eliminated the
                                       need for a more effective system for reporting equitable relief and finality
                                       rule determinations, as they felt the two requirements were redundant.

                                       However, the legislated IPIA and equitable relief reporting requirements are
                                       distinct, and serve different, but complementary, aims. Whereas IPIA
                                       requires that agencies report to Congress estimated improper payments, the
                                       2002 Farm Bill requires that FSA report to Congress the actual number of
                                       equitable relief cases and their disposition.

                                       By failing to carefully track and accurately report equitable relief and
                                       finality rule determinations, FSA is not availing itself of a useful source of
                                       data concerning ways to improve program integrity, and thus reduce
                                       improper payments. FSA’s equitable relief provisions do acknowledge that
                                       FSA should work to prevent future needs for relief. Specifically, the
                                       handbook notes that extending unearned benefits to producers due to the
                                       action or advice of an employee is expensive, and corrective action should
                                       be taken to avoid such expenses. 15 The handbook requires that the
                                       SED should have a plan prepared to identify such weaknesses in program
                                       delivery. However, we found that none of the three States we reviewed had
                                       such a plan. Even if these plans had been developed, the requirement does
                                       not include consideration of finality rule determinations. OIG maintains that
                                       such plans should address weaknesses brought to light through analyses of
                                       both finality rule and equitable relief cases. (Over $2.7 million of 2003
                                       approved equitable relief and finality rule cases were identified in this audit.
                                       See exhibit A.)

                                       Furthermore, OMB’s Circular A-123, “Management’s Responsibility for
                                       Internal Control,” states that agency managers should continuously monitor
                                       and improve the effectiveness of internal control associated with their
                                       programs. A systematic process should be in place to evaluate and correct
                                       identified deficiencies. Agency managers and staff should be encouraged to
                                       identify control deficiencies, as this reflects positively on the agency’s
                                       commitment to recognizing and addressing management problems.

                                       We conclude that FSA needs to develop and implement effective controls
                                       for ensuring that it accurately and completely tracks and reports equitable
                                       relief and finality rule determinations. In addition, the agency should
                                       institute a process to analyze the gathered data and to implement corrective
                                       action to prevent the recurrence of any problems identified.




15
     FSA Handbook 7-CP (revision 2), amendment 1, paragraph 71, dated September 26, 2003.
USDA/OIG-AUDIT/03601-44-Te                                                                                      Page 9
                                                                MARCH 2006
Recommendation 1

                   Develop a plan to implement an automated system to track and account for
                   requests for finality rule and equitable relief determinations.

                   Agency Response.

                   FSA is currently developing an automated system to record, track, and report
                   all program overpayment determinations due to finality rule and equitable
                   relief (misaction/misinformation and failure to fully comply).

                   Through this system, FSA will have the capability to access and review all
                   relief determinations. Using web-based, real-time data, FSA, at the national
                   level, will have the ability to analyze and monitor relief activities by
                   FSA State and county offices. The national office will be able to identify the
                   number of requests, the dollar values associated with each request, the basis
                   for relief, and the approving official. That data will be used to determine if
                   there are any weaknesses in program delivery. It also will serve as a basis to
                   take corrective action in order to lessen future incidence of recurring errors.

                   Tracking-program requirements have been completed and provided to FSA’s
                   Kansas City computer center for software development. The completion of
                   development, testing, and deployment of the tracking software in FSA field
                   offices is anticipated by August 31, 2006.

                   OIG Position.

                   We concur with the management decision for Recommendation 1. In our
                   opinion, final action was completed when FSA developed the
                   tracking-program requirements and provided the plan to FSA’s Kansas City
                   computer center for software development. For acceptance of final action,
                   FSA needs to provide OCFO/PAD documentation of this action.

Recommendation 2

                   Until such time as the automated system in Recommendation 1 can be
                   deployed, establish and implement controls for the FSA National Office to
                   ensure that all State offices submit an Annual FSA-321 Manual report that is
                   accurate and complete.

                   Agency Response.

                   In 2005, FSA initiated a program manager position to implement the
                   administration of the agency’s relief provisions. Responsibilities include the
                   tracking of annual reports, reviews for accuracy, coordinating followup
                   activity regarding questionable data, and summarizing totals for agency use
                   and the annual reporting requirements to Congress.

USDA/OIG-AUDIT/03601-44-Te                                                               Page 10
                                     MARCH 2006
                   All FSA State offices submitted manual summary reports for both the
                   finality rule and equitable relief for the 2005 calendar year as required by
                   exhibit 1 of Handbook 7-CP. The 2005 annual reports were reviewed by the
                   FSA specialist to uncover noticeable errors or trends. State offices were
                   contacted by phone regarding clarification, discrepancies, or irregularities
                   within their 2005 report to increase accuracy.

                   Based upon the knowledge gained by the national office review, the
                   instructions and guidance to FSA State offices will be clarified and
                   expanded upon within Handbook 7-CP for the 2006 reports. It is anticipated
                   that 2006 will be the final year a manual reporting process will have to be
                   utilized.

                   OIG Position.

                   We agree with the planned action for Recommendation 2. However, to
                   reach management decision, we need documentation showing that
                   FSA Handbook 7-CP has been revised for the 2006 reports.

Recommendation 3

                   Establish and implement controls to ensure that informational copies of the
                   FSA National Office’s compiled reports for equitable relief and finality rule
                   cases are submitted to the Financial Management Division for IPIA
                   purposes.

                   Agency Response.

                   On an annual basis, FSA will provide a copy of the summary reports for
                   both equitable relief and finality rule to the Financial Management Division.

                   OIG Position.

                   We agree with the planned action for Recommendation 3. However, to reach
                   management decision, we need documentation showing that
                   FSA Handbook 7-CP has been amended to require the submission of a copy
                   of the summary reports for both finality rule and equitable relief to the
                   Financial Management Division.

Recommendation 4

                   Establish and implement controls for the FSA State offices to ensure that all
                   county offices properly document and report all finality rule and equitable
                   relief cases on the FSA-321.




USDA/OIG-AUDIT/03601-44-Te                                                              Page 11
                                     MARCH 2006
                   Agency Response.

                   All finality rule and equitable relief cases require approval by one of the
                   following:
                       •       FSA STC
                       •       SED
                       •       DAFP

                   FSA procedure requires all approvals of relief requests to be documented
                   with a signature on the FSA-321. The implementation of the automated
                   FSA-321 tracking system, including relief criteria validity checks, will
                   ensure all cases are documented and properly reviewed before relief is
                   granted.

                   OIG Position.

                   We concur with the management decision for Recommendation 4. For
                   acceptance of final action, provide OCFO/PAD documentation that the
                   automated FSA-321 tracking system is operational.

Recommendation 5

                   Establish and implement controls to ensure that each finality rule or equitable
                   relief case is analyzed to identify the causes of the improper payments, and
                   that actions are taken to correct those causes.

                   Agency Response.

                   Paragraph 71 of Handbook 7-CP provides field office direction to analyze
                   relief cases and take corrective action. It also instructs FSA State Executive
                   Directors to develop a “Plan of Corrective Action” to address any weakness
                   in program delivery. FSA procedure currently requires additional training or
                   disciplinary action when appropriate.

                   The annual reporting requirement will be updated to require the submission
                   of analysis and actions taken by FSA State offices in response to that
                   requirement for national review. The plan of corrective action will be
                   expanded to include finality rule cases as recommended by OIG through an
                   amendment to Handbook 7-CP.

                   OIG Position.

                   We agree with the planned action for Recommendation 5. However, to reach
                   management decision, we need documentation showing that FSA Handbook
                   7-CP has been amended to include the updated and expanded requirements
                   listed above.


USDA/OIG-AUDIT/03601-44-Te                                                                Page 12
                                     MARCH 2006
Scope and Methodology
                   We conducted a nationwide audit of all cases for which finality rule or
                   equitable relief was approved or denied during calendar year 2003 by any
                   approving authority, if the basis for relief occurred on or after
                   May 13, 2002. We performed the audit at the FSA National Office, three
                   State offices, and a total of seven county offices, as shown below in table 3.
                   We conducted fieldwork from January 2004 through May 2005.

                                       STATE                       COUNTY
                                      Arkansas                    Crittendon
                                                                  Monroe
                                      Texas                       Pecos
                                                                  Fort Bend
                                      Florida                     Osceola
                                                                  Orange
                                                                  Pasco
                                                      Table 3


                   We judgmentally selected FSA State and county offices for review based on
                   the information provided to us on the annual report of equitable relief
                   compiled by the FSA National Office for the 2003 calendar year. Texas and
                   Arkansas reported zero dollars and requests of equitable relief. Meanwhile,
                   Florida had the most cases reported, a total of 90. (See exhibit B.)

                   The Texas county offices were both selected because the STC minutes
                   contained equitable relief requests from the county offices; however, the
                   counties had not submitted FSA-321s. Rather, the State office had prepared
                   FSA-321s when it elevated the requests to DAFP. The two Arkansas
                   counties were selected because they had the largest dollar amounts in
                   equitable relief requests in the State. The 3 counties in Florida were selected
                   because they contributed the most requests to the 90 total cases reported to
                   the FSA National Office and, in turn, all shared the same county executive
                   director at the time of the requests.

                   To assess the management controls over tracking and reporting finality rule
                   and equitable relief decisions, we reviewed pertinent Federal legislation and
                   regulations, agency policies and procedures, prior OIG reports, and
                   Government Accountability Office reports. We reviewed FSA’s report on
                   equitable relief for 2003 submitted to Congress and the supporting State
                   reports submitted to the FSA National Office. At the three State offices
                   selected for detailed review, we compared the State reports to information in
                   the STC minutes regarding finality rule and equitable relief cases.




USDA/OIG-AUDIT/03601-44-Te                                                                Page 13
                                     MARCH 2006
                   We also reviewed FSA State and county office files pertaining to such relief
                   requests and interviewed FSA officials as needed to satisfy the audit
                   objective.

                   This audit was performed in accordance with generally accepted
                   Government auditing standards.




USDA/OIG-AUDIT/03601-44-Te                                                             Page 14
                                    MARCH 2006
 Exhibit A – Summary of Monetary Results
                                                                                                   Exhibit A – Page 1 of 1



FINDING     RECOMMENDATION
NUMBER          NUMBER                             DESCRIPTION                   AMOUNT               CATEGORY
                                                                                                 Funds To Be Put To
                                             Analysis Of Approved                                   Better Use -
                                             Equitable Relief And                                  Management Or
                                           Finality Rule Cases Could                                 Operating
     1                   5                       Reduce Waste                        $2,754,543 Improvement/Savings
                                                                                 A
                                    TOTAL                                            $2,754,543


A=        Equitable Relief Reported To Congressional Agriculture Committees             $694,629

          Finality Rule Erroneously Included In Equitable Relief Reported To
             Congressional Agriculture Committees                                          2,418                  $697,047


          Equitable Relief Reported Neither To FSA National Office Nor To
            Congress, But Identified By OIG (see exhibit B)                                                       1,894,254

          Finality Rule Not Reported To FSA National Office, But Identified By
             OIG                                                                                                    20,775

          Finality Rule Erroneously Included In State Reports Of Equitable
             Relief To The FSA National Office (But Not Reported To
             Congressional Agriculture Committees)                                                                 142,467
          Total Approved Equitable Relief and Finality Rule Determinations
             Identified During the Audit                                                                        $2,754,543




 USDA/OIG-AUDIT/03601-44-Te                                                                                         Page 15
                                                       MARCH 2006
Exhibit B – 2003 Reports of Equitable Relief
                                                                                                  Exhibit B – Page 1 of 2



                                                                                                    2003 Equitable Relief
                                                                              Approved Equitable Identified by OIG and
                                   Approved Equitable         Report in       Relief Determinations    Not Reported to
                    Number of      Relief Determinations   Accordance with         Reported to         Congressional
                    Approved        Reported on State’s    FSA Handbook           Congressional         Agriculture
                  Equitable Relief    Annual Report             7-CP,        Agriculture Committees     Committees
                  Cases Reported        ($ Rounded)          Exhibit 11            ($ Rounded)          ($ Rounded)
     State

   Alabama               1                $1,093                Yes                  $1,093
    Alaska               0                   0                  NoA                    0
    Arizona              0                   0                  Yes                    0
                                                                     A
   Arkansas              0                   0                  No                     0                          $11,141
                                                                     A
   California            3                 9,459                No                   9,459
   Colorado              4                12,324                Yes                  12,324
                                                                     A
  Connecticut            0                   0                  No                     0

   Delaware              0                   0                  NoA                    0

   Florida &
 Virgin Islands         90                174,521               Yes                 174,521
    Georgia             44                21,795                Yes                  21,795
                                                                     A
    Hawaii               0                   0                  No                     0
                                                                     B
     Idaho              30                83,181                No                   83,181
                                                                     A
    Illinois             1                 733                  No                    733
    Indiana              9                 4,385                NoA                  4,385
                                                                     A
     Iowa                0                   0                  No                     0
                                                                                                                   9,914C
    Kansas              22                25,594                Yes                  15,680
   Kentucky              0                   0                  NoA                    0
                                                                     A
   Louisiana             0                   0                  No                     0
                                                                     B
    Maine                0                   0                  No                     0
                                                                     B
   Maryland              1                   0                  No                     0
 Massachusetts           0                   0                  NoA                    0
                                                                     A
   Michigan              0                   0                  No                     0
  Minnesota              0                   0                  Yes                    0
                                                                     B
  Mississippi            0                   0                  No                     0
   Missouri              0                   0                  NoA                    0
   Montana               9                 3,051                Yes                  3,051
   Nebraska              1                 395                  Yes                   395


USDA/OIG-AUDIT/03601-44-Te                                                                                    Page 16
                                                    MARCH 2006
                                                                                                                   2003 Equitable Relief
                                                                                             Approved Equitable Identified by OIG and
                                           Approved Equitable             Report in          Relief Determinations    Not Reported to
                            Number of      Relief Determinations       Accordance with            Reported to         Congressional
                            Approved        Reported on State’s        FSA Handbook              Congressional         Agriculture
                          Equitable Relief    Annual Report                 7-CP,           Agriculture Committees     Committees
                          Cases Reported        ($ Rounded)              Exhibit 11               ($ Rounded)          ($ Rounded)
            State
           Nevada                 1                   $436                    NoA                     $436
                                                                                   A
       New Hampshire              0                     0                     No                        0
         New Jersey              12                  13,072                   Yes                    13,072
         New Mexico               0                     0                     Yes                       0
          New York                0                     0                     Yes                       0
                                                                                   B
        North Carolina            0                     0                     No                        0
        North Dakota             27                  40,130                   Yes                    40,130
                                                                                   A
             Ohio                 2                    600                    No                       600
          Oklahoma                0                     0                     NoB                       0
                                                                                   B
           Oregon                 0                     0                     No                        0
        Pennsylvania              7                   3,562                   Yes                     3,562
         Puerto Rico              0                     0                     NoA                       0
                                                                                   B
         Rhode Island             0                     0                     No                        0
        South Carolina           13                   8,470                   Yes                     8,470
        South Dakota              0                     0                     Yes                       0
          Tennessee               1                   9,790                   NoA                     9,790
                                                                                   B
            Texas                 0                     0                     No                        0                            1,873,199
             Utah                 0                     0                     Yes                       0
           Vermont                9                  273,643                  Yes                    273,643
           Virginia               0                     0                     Yes                       0
         Washington               4                   6,180                   Yes                     6,180
        West Virginia             0                     0                     Yes                       0
          Wisconsin               4                  12,129                   Yes                    12,129
          Wyoming                 0                     0                     Yes                       0
          TOTALS                 295                $704,543                                       $694,629D                       $1,894,254



Yes   23 State offices submitted annual reports in accordance with the Handbook. However, the correct total for Kansas was not reported
      to Congressional Agriculture Committees. (See note C.)
NoA   19 State offices listed only determinations made by the SED.
NoB   9 State offices’ reports were incomplete (i.e., all counties not accounted for).
  C   The National Appeals Division approved this amount at a later date; however, the FSA National Office did not account for it when a
       revised report was submitted by the State office.
 D    Amount reported to the Congressional Agriculture Committees (less the $2,418 of Finality Rule).
 E    Amount of approved Equitable Relief not reported to the Congressional Agriculture Committees.



      USDA/OIG-AUDIT/03601-44-Te                                                                                                  Page 17
                                                               MARCH 2006
Exhibit C – 2003 Finality Rule Cases Identified by Audit
                                                                                                               Exhibit C – Page 1 of 1


                                     Amount of
                       Number of Finality Rule
                      Finality Rule    Cases
         State           Cases      ($ Rounded)                            How Identified
California                  9           $77,240      Included on State’s Annual Report of Equitable Relief
Kansas                      1            12,206      Included on State’s Annual Report of Equitable Relief
North Carolina              1            53,021      Included on State’s Annual Report of Equitable Relief
North Dakota                1             2,418      Included on State’s Annual Report of Equitable Relief 1
        Sub-Total          12           $144,885
Texas                      18            20,775      Identified by State Agency During OIG’s Review
       TOTAL               30           $165,660

1
    This case was erroneously included in FSA’s 2003 report to Congress on Equitable Relief.




USDA/OIG-AUDIT/03601-44-Te                                                                                                 Page 18
                                                           MARCH 2006
Exhibit D – Agency Response
                                          Exhibit D – Page 1 of 3




USDA/OIG-AUDIT/03601-44-Te                            Page 19
                             MARCH 2006
USDA/OIG-AUDIT/03601-44-Te                Page 20
                             MARCH 2006
USDA/OIG-AUDIT/03601-44-Te                Page 21
                             MARCH 2006
